A1
Supreme Court of the State of New York
Appellate Division, First Judicial Department

Justice Presiding,
PRESENT: Hon. Barbara R. Kapnick
Cynthia S. Kern
Lizbeth Gonzalez
Martin Shulman,
Justices.

Motion No. 2021-00028
The Church of Jesus
Index No. 101049/19
Christ of Latter-Day Saints,
Case No. 2020-03564
Servant: Xiu Jian Sun, The
Spiritual Adam,
Plaintiffs-Appellants,
-againstNorthwell Health, Long Island
Jewish Medical Center,
Defendants-Respondents.

An appeal having been taken to this Court from an
order of the Supreme Court, New York County,
entered on or about January 06, 2020,
And an order of this Court, entered October 8, 2020
(M-2770), having denied plaintiffs’ motion to vacate
the dismissal of the appeal, for an extension of time in
which to perfect same, for leave to prosecute the appeal
as a poor person, and for related relief,

A2

And plaintiffs-appellants having again moved to
vacate the dismissal of the appeal, for leave to
prosecute said appeal as a poor person, for the
assignment of counsel, and for related relief,
Now, upon reading and filing the papers with
respect to the motion, and due deliberation having
been had thereon,
It is ordered that the motion, deemed one for
reargument of this Court’s prior order entered on
October 8, 2020 (M-2770), is denied.
ENTERED: February 2, 2021
Susanna Molina Roias
Susanna Molina Rojas
Clerk of the Court

A3
Supreme Court of the State of New York
Appellate Division, First Judicial Department

Justice Presiding,
Present - Hon. David Friedman,
Barbara R. Kapnick
Cynthia S. Kern
Lizbeth Gonzalez
Martin Shulman,

Justices.

Motion No. 2770
The Church of Jesus
Index No. 101049/19
Christ of Latter-Day Saints,
Case No. 2020-03564
Servant: Xiu Jian Sun, The
Spiritual Adam,
Plaintiffs-Appellants,
-againstNorthwell Health, Long Island
Jewish Medical Center,
Defendants-Respondents.

An appeal having been taken to this Court from an
order of the Supreme Court, New York County,
entered on or about January 06, 2020, and plaintiff Xiu
Jian Sun, The Spiritual Adam, having moved for leave
to prosecute said appeal as a poor person, for leave to
have the appeal heard on the original record and upon
a reproduced appellant’s brief; and for an order
vacating the dismissal of the aforesaid appeal and for
an extension of time in which to perfect the appeal,

A4

Now, upon reading and filing the papers with
respect to the motion, and due deliberation having
been had thereon,
It is ordered that the motion is denied.
ENTERED: October 08, 2020
Susanna Molina Roias
Susanna Molina Rojas
Clerk of the Court

B1
page 1 of 1

101049/2019 ORDER filed 1/6/2020

SUPREME COURT OF THE STATE OF NEW
YORK NEW YORK COUNTY
PRESENT: Hon. Carol R. Edmead
PART 35

Justice
x

Xiu Jian Sun
-vNorthwell Health, et. Al.
x

INDEX NO.101049/19
MOTION DATE____
MOTION SEQ NO.___
FILED
JAN 6 2020
COUNTY CLERK’S
OFFICE NEW YORK

The following papers, numbered 1 to
were read on this motion to/for____
Notice of Motion/Order to Show
Cause-Affidavits-Exhibits____

No(s)

Answering Affidavits-Exhibits.

No (s)

Replying Affidavits__________

No(s)

Upon the foregoing papers, it is ordered that
motion is
The complaint in this action seeks a “ [t] rial with
god’s law” and to” prevent insult and unfair behavior.”

B2
The complaint also makes various religious statement
that are not correlated with any alleged conduct by
defendants Northwell Health and Long Island Medical
Center (Defendants), he court notes that Plaintiff Xiu
Jian Sun, who refers to himself as the Spiritual Adam,
as wall as The Church of Jesus Christ of Latter-day
saints Servant, has brought similar in Nassau County
and federal court.
Pursuant to the “So-ordered” transcript (Court
Reporter, Deborah Salzman), it is
ORDERED that defendants' Northwell Health
and Long Island Medical Center’ s (Respondents), oral
application to dismiss the complaint with prejudice is
granted; and it is further
ORDERED that Plaintiff is precluded from
commencing any actions in New York Country
purporting to represent the interests of The Church of
Jesus Christ of Latter-day saints.
This result is required by three factors. First,
Plaintiff has no standing to act on behalf of nominal
plaintiff The Church of Jesus Christ of Latter-day
saints. Plaintiff presents no evidence that he has
authority to represent the Church of Jesus Christ of
Latter-day saints. Second, the complaint fails to state
a cause of action that may by the subject of a judicial

B3
determination.
Instead,
it
invokes
religious
exhortations. Third, plaintiff ‘ s claims cannot be
challenged in a judicial setting, as said claims are
purported to come from “A Higher power.”
This is not belittle or belie the veracity or sincerity
of plaintiff ‘s claims, it is just to say the court lacks
both personal and subject matter jurisdiction over said
claims.
Dated: 1/6/2020
Carol R. Edmead J.S.C.
HON. CAROL R. EDMEAD J.S.C.
CHECK ONE:

[XI CASE DISPOSED
[ ] NON-FINAL DISPOSMON

CHECK AS APPROPRIATE: .... MOTION IS:
[ ] DENIED,
[ ] GRANTED,
[ ]OTHER
[ ] GRANTED IN PART,

CHECK IF APPROPRIATE: [ ] SETTLE ORDER
[ ] DO NOT POST
[ ] SUBMIT ORDER,
[ ] FIDUCIARY APPOINTMENT,
[ ]REFERENCE

Printed: 6/22/2020

